CERTIFICATE OF COMPLIANCE
Case No. _ _ __
Caption: Christina Tah; Randolph McClain v.

Global Witness Publishing Inc.; Global
Witness

As required by Supreme Court Rule 33. l(h),
I certify that the document contains 8,997 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 26, 2021.

Vittorio Virili

Record Press, Inc.

Sworn to before me on
July 26, 2021
JASMINE WILLIAMS

Notary Public, State of New York
No. 01Wl6397949
lified in Qu
· nExpires
3

